LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

November 23, 2020

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-538:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

RENTBERRY, INC. AND DELANEY WYSINGLE V. CITY OF SEATTLE,
WASHINGTON

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Institute for Free
Speech and the Council on American-Islamic Relations on November 23, 2020, I caused
service to be made pursuant to Rule 29 and the Temporary Order of April 15, 2020 on
the following counsel for the Petitioners and Respondent:
PETITIONERS:

Deborah Joyce La Fetra
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
916-419-7111
DLaFetra@pacificlegal.org

RESPONDENT:

Erica R. Franklin
701 Fifth Avenue
Suite 2050
Seattle, WA 98104-7097
206-684-8200
erica.franklin@seattle.gov

This service was effected by depositing one copy of the Brief of Amici Curiae
Institute for Free Speech and the Council on American-Islamic Relations in an official
“first class mail” receptacle of the United States Post Office as well as by transmitting
a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 23rd day of November 2020.

